TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Customer Account Data Engine Release 3
                      Successfully Processes Individual
                   Tax Return and Tax Account Information



                                        October 24, 2008

                              Reference Number: 2009-20-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               October 24, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Customer Account Data Engine Release 3
                                 Successfully Processes Individual Tax Return and Tax Account
                                 Information (Audit # 200820009)

 This report presents the results of our review to determine whether Customer Account Data
 Engine (CADE) Release 31 accurately processed tax return information. The overall objective of
 this review was to determine whether CADE Release 3 met user requirements and is performing
 as expected. This report is the fifth in a series of ongoing reviews of production releases of the
 CADE. These reviews are meant to determine whether the deployed production versions of the
 CADE are working as designed. This review was part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2008 Annual Audit Plan coverage under the major management
 challenge of Modernization of the Internal Revenue Service (IRS).

 Impact on the Taxpayer
 The IRS has developed a strategy for a phased replacement of its computer systems to better
 support today’s tax laws, policies, and taxpayer needs. The CADE is an essential project in this
 strategy and is considered the centerpiece of the IRS modernization program. The modernized
 CADE database will allow the IRS to update taxpayer accounts, support account settlement and
 maintenance, and process refunds daily, which will contribute to improved service to taxpayers.
 Based on our review, CADE Release 3 is operating effectively to help the IRS provide these
 improved services to taxpayers.




 1
     See Appendix V for a glossary of terms.
                                  Customer Account Data Engine Release 3
                               Successfully Processes Individual Tax Return and
                                           Tax Account Information



Synopsis
The CADE is being implemented in a series of bi-annual releases over several years. The first
CADE release began posting the simplest individual tax returns in July 2004. The subject of this
review, Release 3, began processing tax returns in August 2007. In addition to new tax law
changes, several new tax return schedules were added to the CADE, including Earned Income
Credit (Schedule EIC), Child and Dependent Care Expenses (Form 2441), Child and Dependent
Care Expenses for Form 1040A Filers (Schedule 2), and
Direct Deposit of Refund to More Than One Account
                                                                 In Calendar Year 2008, the
(Form 8888). Additional improvements include the                CADE processed more than
enhanced ability to process taxpayer address changes, and         30 million tax returns and
for the first time, the CADE is now processing two math             generated more than
error notices and an Earned Income Tax Credit                       $44 billion in refunds.
informational notice.
The Economic Stimulus Act of 2008,2 signed by the
President on February 13, 2008, was enacted to put money in the hands of American workers and
businesses and to provide a boost to a slowing economy. The IRS developed a program to
identify taxpayers qualified to receive the economic stimulus payments. This program was
deployed to the CADE in a timely manner, and the IRS began sending payments to taxpayers on
April 28, 2008.
We sampled tax accounts processed using Release 3 capabilities and found that the CADE
successfully incorporated new requirements to accept and process tax return and tax account
information. As of July 25, 2008, the CADE had processed more than 30 million tax returns
(approximately 21 percent of all individual tax returns filed) and generated more than $44 billion
in refunds in Calendar Year 2008. This is a significant increase over the 11.2 million tax returns
processed in Calendar Year 2007. In addition, the CADE accurately processed almost
24 million economic stimulus payments totaling more than $18 billion during this same period in
Calendar Year 2008.

Recommendations
We made no recommendations in this report.




2
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                                 2
                           Customer Account Data Engine Release 3
                        Successfully Processes Individual Tax Return and
                                    Tax Account Information



Response
In an email to us, IRS management concurred with the contents of an advance copy of the draft
report. Because the IRS concurred with the report contents and the report contained no
recommendations, the IRS was not required to and did not provide a formal response.
Copies of this report are also being sent to the IRS managers affected by the report results.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Security and Information Technology Services), at (202) 622-8510.




                                                                                                3
                                    Customer Account Data Engine Release 3
                                 Successfully Processes Individual Tax Return and
                                             Tax Account Information




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Customer Account Data Engine Release 3 Accurately Processes
          and Records Tax Return and Tax Account Information...............................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Customer Account Data Engine Release Capabilities .........Page 13
          Appendix V – Glossary of Terms .................................................................Page 17
          Customer Account Data Engine Release 3
       Successfully Processes Individual Tax Return and
                   Tax Account Information




                Abbreviations

CADE      Customer Account Data Engine
IRS       Internal Revenue Service
                                  Customer Account Data Engine Release 3
                               Successfully Processes Individual Tax Return and
                                           Tax Account Information




                                              Background

The Customer Account Data Engine (CADE) is the centerpiece
of the Internal Revenue Services’ (IRS) modernization program.          The CADE is a critical
The CADE consists of current and planned databases and               building block in the IRS’
related applications that will eventually replace the IRS Master    modernization program that
File1 system as the official repository of taxpayer account         will enable the development
information. When fully operational, the CADE will house tax        of subsequent modernized
                                                                         systems to improve
information for more than 200 million individual and business           customer service and
taxpayers.                                                                  compliance.
Both paper and electronic tax returns are received by the IRS at
various Submission Processing sites across the country. At
these sites, the tax return information is input to the IRS return processing computer system,
which validates certain taxpayer identifying information and checks the tax returns for math
errors. After the tax return information has been validated and errors have been corrected, the
sites send the information to the IRS Computing Centers for posting to the taxpayers’ accounts.
In the past, this account information was posted to the Master File.
The age and complexity of the Master File cause inaccuracies and delays in providing service to
taxpayers. Updates to taxpayers’ account information on the Master File (e.g., posting return
information and payments) occur weekly, and some updates require multiple weeks to complete.
Because current data are not available to IRS employees, taxpayers requesting help with their
accounts might be given outdated information. In contrast, the CADE is designed to post
information to taxpayers’ accounts daily rather than weekly. Taxpayers should receive refunds
faster, and IRS employees should be able to provide improved service to taxpayers because the
employees will have up-to-date, accurate account information available.
The first phase of the CADE, which is for individual taxpayer accounts, is being implemented in
a series of releases over several years. The simplest taxpayer accounts were moved to the CADE
first, and each successive release adds a more complex segment of taxpayer accounts. The first
CADE release began posting the simplest individual tax returns, the Income Tax Return for
Single and Joint Filers With No Dependents (Form 1040EZ), in July 2004. Subsequent releases
have added new capabilities and tax forms. The subject of this review, CADE Release 3, began
posting returns in August 2007 and contained significant additions over the prior releases.
This review was performed in the Wage and Investment Division CADE Project Office in
New Carrollton, Maryland, during the period February 2008 through August 2008. We


1
    See Appendix V for a glossary of terms.
                                                                                          Page 1
                           Customer Account Data Engine Release 3
                        Successfully Processes Individual Tax Return and
                                    Tax Account Information



conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
finding and conclusions based on our audit objective. This review was part of the Treasury
Inspector General for Tax Administration Fiscal Year 2008 Annual Audit Plan coverage under
the major management challenge of Modernization of the IRS. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                          Page 2
                                  Customer Account Data Engine Release 3
                               Successfully Processes Individual Tax Return and
                                           Tax Account Information




                                          Results of Review

The Customer Account Data Engine Release 3 Accurately Processes
and Records Tax Return and Tax Account Information
The IRS completed CADE Release 3.1 in October 2007 and Release 3.2 in February 2008. In
addition to new tax law changes, several new tax return schedules were added to the CADE,
including Earned Income Credit (Schedule EIC), Child and Dependent Care Expenses
(Form 2441), Child and Dependent Care Expenses for Form 1040A Filers (Schedule 2), and
Direct Deposit of Refund to More Than One Account (Form 8888). Additional improvements
include the enhanced ability to process taxpayer address changes using the Enterprise
Application Integration Broker, and for the first time, the CADE is now processing two math
error notices and an Earned Income Tax Credit informational notice. Appendix IV provides an
overview of the capabilities delivered in each of the CADE releases.
As of July 25, 2008, the CADE had processed more than
30 million tax returns (approximately 21 percent of all                  In Calendar Year 2008, the
individual tax returns filed) and generated more than $44 billion       CADE processed more than
in refunds in Calendar Year 2008. This is a significant increase          30 million tax returns and
over the 11.2 million tax returns processed in Calendar                     generated more than
                                                                            $44 billion in refunds.
Year 2007. In addition, the CADE accurately processed almost
24 million Economic Stimulus Act of 20082 payments totaling
more than $18 billion during this same period in Calendar
Year 2008.

Release 3.1 capabilities enable the CADE to accurately record more tax return
account information
The major capabilities added to CADE Release 3.1 included the Disaster Area Designation, the
ability to accept address changes from the Enterprise Application Integration Broker, and the
Legacy Account Formatted File Online entity “in-transit” indicator.
      •    The Disaster Area Designation is applied to taxpayer accounts affected by a disaster
           (e.g., Hurricane Katrina’s destruction of New Orleans) and allows an extension for filing
           tax returns. The Disaster Area Designation transaction prevents the issuance of any
           delinquency notices to affected taxpayers until the disaster time period has expired. We



2
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                              Page 3
                            Customer Account Data Engine Release 3
                         Successfully Processes Individual Tax Return and
                                     Tax Account Information



       determined that taxpayer accounts were appropriately marked with the Disaster Area
       Designation.
   •   The Enterprise Application Integration Broker enables data communication and
       transformation among systems and applications. Release 3.1 successfully implemented
       the capability to enable the CADE to accept taxpayer address changes using the
       Enterprise Application Integration Broker.
   •   The Legacy Account Formatted File Online entity “in-transit” indicator identifies
       taxpayer accounts that do not qualify for CADE processing and are returning to the
       Individual Master File for account control. We determined that tax returns with the
       Legacy Account Formatted File Online entity indicator were successfully returned and
       posted to the Individual Master File.
Release 3.1 also added a tax period balance validation process to the CADE. If the validation
process detects an out-of-balance amount, the CADE will trigger an error message requiring
resolution of the error before the tax period balance can be updated to the Legacy Account
Formatted File Online. We attempted to identify out-of-balance error conditions requiring
resolution by the CADE. The IRS reported that it has resolved out-of-balance conditions
between the CADE and the Legacy Account Formatted File Online through automated error
resolution processes.

Release 3.2 successfully incorporated new requirements to accept and process
tax return information
New requirements for CADE Release 3.2 included the ability to accept tax returns with math
errors and to initiate math error notices, to accept claims for child and dependent care credits,
and to accept claims for the Earned Income Tax Credit. Release 3.2 also allowed the CADE to
interface with the Dependent Database to help verify taxpayer dependent and Earned Income
Tax Credit claims and to provide taxpayers with the ability to deposit their electronic tax return
refunds into multiple checking, savings, and/or retirement accounts.
   •   Some taxpayers file tax returns with math errors. The IRS has processes to accept tax
       returns containing math errors, correct the errors during processing, and issue math error
       notices explaining the corrections to the affected taxpayers. We determined that the
       CADE successfully accepted the U.S. Individual Income Tax Returns (Forms 1040 and
       1040A) and Forms 1040EZ containing math errors and generated notices advising the
       affected taxpayers about the corrections made to their tax returns.
   •   Tax law provisions allow some taxpayers to claim credits for child and dependent care
       expenses. We determined that the CADE successfully accepted individual tax returns
       claiming child and dependent care expenses.



                                                                                             Page 4
                          Customer Account Data Engine Release 3
                       Successfully Processes Individual Tax Return and
                                   Tax Account Information



   •   The Earned Income Tax Credit is allowed for taxpayers with income under certain
       thresholds. We determined that the CADE 1) has the ability to accept tax returns with an
       Earned Income Tax Credit and 2) appropriately issues low-income taxpayers notices
       regarding their eligibility to claim the Earned Income Tax Credit.
   •   We determined that the CADE effectively interfaces Forms 1040 and 1040A with the
       Dependent Database to verify taxpayer dependent and Earned Income Tax Credit claims.
   •   The IRS provided taxpayers with the option of depositing their electronic tax return
       refunds into multiple checking, savings, and/or retirement accounts. We determined that
       tax returns processed by the CADE accurately direct the tax refunds to appropriate
       accounts for deposit, as requested by the taxpayers.

The CADE effectively processed economic stimulus payments
The Economic Stimulus Act of 2008, signed by the President on
February 13, 2008, was enacted to put money in the hands of        The CADE processed more
American workers and businesses and to provide a boost to a       than $18 billion in economic
slowing economy. The IRS developed a program to identify          stimulus payments to almost
taxpayers qualified to receive the economic stimulus payments.        24 million taxpayers.
This program was deployed to the CADE in a timely manner on
April 21, 2008, and the IRS began sending payments to
taxpayers on April 28, 2008. As of July 25, 2008, the CADE had processed more than
$18 billion in payments to almost 24 million taxpayers. We determined that the CADE
accurately processed the economic stimulus payments.




                                                                                         Page 5
                                  Customer Account Data Engine Release 3
                               Successfully Processes Individual Tax Return and
                                           Tax Account Information



                                                                                       Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether CADE Release 31 met user
requirements and performs as expected. To accomplish our overall objective, we:
I.         Determined whether new requirements included in Release 3.1 accurately posted tax
           return information to the CADE.
II.        Determined whether new requirements included in Release 3.2 accurately posted tax
           return information to the CADE. Specifically, we determined whether the CADE:
           A. Accepted accounts with math errors and initiated math error notices.
           B. Accepted tax returns that claim a credit for child and dependent care.
           C. Accepted tax returns with an Earned Income Tax Credit or initiated notices to
              appropriate taxpayers of their eligibility to claim this Credit.
           D. Interfaced with the Dependent Database to help verify the dependent and Earned
              Income Tax Credit claims.
           E. Provides taxpayers with the ability to deposit their electronic refunds from tax returns
              into multiple checking, savings, and/or retirement accounts.
III.       Determined whether the CADE efficiently and effectively processed economic stimulus
           payments required with enactment of the Economic Stimulus Act of 2008.2
           A. Determined whether the CADE processed payments and avoided returning
              CADE accounts to the Individual Master File to process the payments.
           B. Determined whether the payments processed by the CADE were accurate.
           C. Determined whether the payments were issued in a timely manner.




1
    See Appendix V for a glossary of terms.
2
    Pub. L. No. 110-185, 122 Stat. 613.
                                                                                               Page 6
                             Customer Account Data Engine Release 3
                          Successfully Processes Individual Tax Return and
                                      Tax Account Information



Validity and reliability of data from computer-based systems
We obtained individual tax return data processed by the CADE and stored on the Modernized
Tax Return Database. We compared these data to information processed and stored in the
Individual Master File. We used the tax return identification number as the control to validate
the accuracy of the matching of the tax return information stored on the Modernized Tax Return
Database and the Individual Master File. The data were sufficiently reliable to perform our audit
analyses.

Analysis of CADE tax return samples
Tables 1 through 3 present the tax return populations and samples we used to analyze CADE
Releases 3.1 and 3.2 capabilities and the processing of payments related to the Economic
Stimulus Act of 2008. Our reviews involved analyses of Calendar Years 2006 and 2007 U.S.
Individual Income Tax Returns (Forms 1040 and 1040A) and Income Tax Returns for Single
and Joint Filers With No Dependents (Form 1040EZ) filed and recorded to the CADE from
August 2007 through July 2008. We used random sampling to ensure that each account had an
equal chance of being selected, which enabled us to obtain sufficient evidence to support our
results.
                     Table 1: Sample Selection of CADE Release 3.1
                          Forms 1040, 1040A, and 1040EZ Filed
                       From August 2007 Through December 2007

           CADE Release 3.1 Capability Tested            Population             Sample Size
                Disaster Area Designation                1,792,321                   30

            Enterprise Application Integration             1,376                     10
             Broker System Address Change
                        Requests

          Legacy Account Formatted File Online             27,957                    10
          Entity Account “In Transit” Indicator

             Account Balance Validation and            None identified                0
                     Identification


        Source: Treasury Inspector General for Tax Administration extract of tax return account data
        from the CADE and the Individual Master File for the period August 2007 through
        December 2007.




                                                                                                       Page 7
                          Customer Account Data Engine Release 3
                       Successfully Processes Individual Tax Return and
                                   Tax Account Information



Detailed Sample Parameters:
   •   Disaster Area Designation Tax Returns – We selected 30 individual income tax returns
       that had posted to the CADE with a Disaster Area Designation between August 2007 and
       November 2007.
   •   Enterprise Application Integration Broker System Address Change Requests – We
       selected 10 individual income tax returns with address changes processed by the CADE
       that were submitted by the Enterprise Application Integration Broker system between
       September 2007 and December 2007.
   •   Legacy Account Formatted File Online Entity Account “In Transit” Indicator – We
       selected 10 individual income tax returns with an “in transit” indicator required to
       identify which CADE accounts were sent to the Individual Master File as of December
       31, 2007.
   •   Account Balance Validation and Identification – There were no instances of
       out-of-balance conditions identified.




                                                                                      Page 8
                               Customer Account Data Engine Release 3
                            Successfully Processes Individual Tax Return and
                                        Tax Account Information



                      Table 2: Sample Selection of CADE Release 3.2
                           Forms 1040, 1040A, and 1040EZ Filed
                          From January 2008 Through July 2008
                                                                                       Totals for Forms
                                                                                         1040/1040A/
                               Form 1040         Form 1040A         Form 1040EZ            1040EZ
        CADE Release 3.2       Population/       Population/         Population/         Populations/
        Capability Tested      Sample Size       Sample Size         Sample Size        Sample Sizes
           Issuance of             6,953            3,816               14,085              24,854
        Non-Balance-Due
        Math Error Notices          15                15                  15                  45

       Child and Dependent        792,845           33,861         Not Applicable           826,706
       Care Expenses (Form
           2441) Credit             30                30           Not Applicable             60


       Earned Income Credit       478,069          388,503         Not Applicable           866,572
          (Schedule EIC)
                                    30                30           Not Applicable             60
        Earned Income Tax         15,256            10,756              32,314              58,326
          Credit Notices
                                    10                10                  20                  40
       Dependent Database          3,769            2,078                 20                 5,867
            Interface
                                    10                10                  10                  30
          Split Refunds            8,793            1,585               1,784               12,162
                                    10                10                  10                  30

    Source: Treasury Inspector General for Tax Administration extracts of tax return account data from
    the CADE and the Individual Master File for the period January 2008 through July 2008.

Detailed Sample Parameters:
   •    Issuance of Non-Balance-Due Math Error Notices – We selected 45 individual income
        tax returns that had posted to the CADE between April and July 2008 and were issued
        non-balance-due math error notices.
   •    Child and Dependent Care Expenses (Form 2441) Credit – We selected 60 individual
        income tax returns that claimed a tax credit for child and dependent care expenses and
        had posted to the CADE between February and May 2008.
   •    Earned Income Credit (Schedule EIC) – We selected 60 individual income tax returns
        that claimed the Earned Income Tax Credit and had posted to the CADE between
        February and May 2008.

                                                                                                         Page 9
                                Customer Account Data Engine Release 3
                             Successfully Processes Individual Tax Return and
                                         Tax Account Information



   •     Earned Income Tax Credit Notices – We selected 40 individual income tax returns
         with Earned Income Tax Credit notices generated by the CADE between April and
         June 2008.
   •     Dependent Database Interface – We selected 30 individual income tax returns that had
         posted to the CADE between January and May 2008 and had been identified by the IRS
         for review of the dependents reported on the tax returns.
   •     Split Refunds – We selected 30 individual income tax returns that had posted to the
         CADE between March 2008 and July 2008 and included a Direct Deposit of Refund to
         More Than One Account (Form 8888) to split the refund into separate accounts.
              Table 3: Sample Selection of Economic Stimulus Act of 2008
             Payment Program Accounts From April 2008 Through May 2008

                                        Payments             CADE Payments
                                     Processed by the        Processed by the           Total CADE
                                         CADE                  Master File               Payments
         Economic Stimulus Act          17,040,368               1,074,661               18,115,029
            of 2008 Payment
                Program
                Sampled                     50                      34                       84
         Economic Stimulus Act
            of 2008 Payment
                Program

       Source: Treasury Inspector General for Tax Administration extracts of tax return account data from
       the CADE and the Individual Master File for the period April 2008 through May 2008.

Detailed Sample Parameters:
   •     Economic Stimulus Act of 2008 Payment Program – We selected 84 individual
         income tax returns that had posted to the CADE and had been selected by the IRS to
         receive economic stimulus payments between April 2008 and May 2008.




                                                                                                        Page 10
                          Customer Account Data Engine Release 3
                       Successfully Processes Individual Tax Return and
                                   Tax Account Information



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Security and Information Technology
Services)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
James A. Douglas, Senior Auditor
Michael A. Garcia, Senior Auditor
Paul M. Mitchell, Senior Auditor
Wallace C. Sims, Senior Auditor
Robert J. Carpenter, Senior Information Technology Specialist
Arlene Feskanich, Senior Information Technology Specialist
Richard Hillelson, Information Technology Specialist
Martha Stewart, Information Technology Specialist




                                                                                      Page 11
                         Customer Account Data Engine Release 3
                      Successfully Processes Individual Tax Return and
                                  Tax Account Information



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief Information Officer OS:CIO
Deputy Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 12
                                  Customer Account Data Engine Release 3
                               Successfully Processes Individual Tax Return and
                                           Tax Account Information



                                                                                              Appendix IV

    Customer Account Data Engine Release Capabilities

The IRS is implementing the CADE in a series of releases1 over several years. Table 1 describes
the capabilities implemented in Releases 1 and 2.
                       Table 1: CADE Release 1 and Release 2 Capabilities

         CADE               Start of
         Release           Processing                    Capabilities Added for Each Release
      Release 1.1      July 2004              Form 1040EZ for single filers and joint filers with no
                                              dependents.
                                              Single filing status only.
      Release 1.2      January 2005           Tax law changes for filing season.
      Release 1.3.2    January 2006           Forms 1040 and 1040A with no dependents and no
                                              attachments or schedules.
                                              Address changes on returns.
      Release 2.1      September 2006         Returns with Head of Household filing status.
                                              Returns with Schedules A, B, and R.
                                              Returns with limited name changes.
                                              United States Postal Service address change updates.
      Release 2.2      March 2007             Form 1040EZ-T.
                                              Returns with Married Filing Jointly and Married Filing
                                              Separately filing statuses.
                                              Credit for Federal Telephone Excise Tax paid.
    Source: The IRS Applications Development organization.
Form 1040 – U.S. Individual Income Tax Return
Form 1040A – U.S. Individual Income Tax Return
Form 1040EZ – Income Tax Return for Single and Joint Filers With No Dependents
Form 1040EZ-T – Request for Refund of Federal Telephone Excise Tax
Schedule A (Form 1040) – Itemized Deductions
Schedule B (Form 1040) – Interest and Ordinary Dividends
Schedule R (Form 1040) – Credit for the Elderly or the Disabled



1
    See Appendix V for a glossary of terms.
                                                                                                       Page 13
                               Customer Account Data Engine Release 3
                            Successfully Processes Individual Tax Return and
                                        Tax Account Information



 The IRS initially planned to implement 17 requirements for Release 3 and divided the
 requirements delivery into 2 sub-releases, Releases 3.1 and 3.2. Table 2 presents the capabilities
 for Release 3.1, which was completed in October 2007.
                             Table 2: CADE Release 3.1 Capabilities
        Capability                                Description                            Date Deployed
 Disaster Area Designation Adds the processing necessary to accept Disaster
                           Area transaction. Maintains all information
                                                                                         August 9, 2007
                           necessary to determine disaster start and end dates
                           and to change business rules as necessary based
                           on requirements gathering.
 Add Indicator to Legacy      Adds an indicator to the balance section of the            August 9, 2007
 Account Formatted File       entity on the Legacy Account Formatted File
 Online Entity to Show        Online showing that an account is “in transit”
 Account Is “In Transit”      when it has been sent to the Individual Master File
                              from the CADE.
 Validate Module Balance      Validates the CADE account balance and updates             August 9, 2007
 When Updating Tax            the Legacy Account Formatted File Online.
 Modules on Legacy
 Account Formatted File
 Online
 Enterprise Application       Develops or provides address change services to           October 1, 2007
 Integration Broker           support online requests originated from the IRS
                              Enterprise Application Integration Broker.

Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.




                                                                                                    Page 14
                                   Customer Account Data Engine Release 3
                                Successfully Processes Individual Tax Return and
                                            Tax Account Information



 The IRS completed Release 3.2 in February 2008. Table 3 presents the capabilities for
 Release 3.2.
                                 Table 3: CADE Release 3.2 Capabilities

            Capability                             Description                         Date Deployed
 Issuance of                       Sends notifications to taxpayers when              January 14, 2008
 Math Error Notices                discrepancies are found during tax return
                                   processing.
 Child and Dependent Care          Processes information from taxpayers who          February 11, 2008
 Expenses (Form 2441)              have filed Form 1040/Form 2441 or
 Credit                            Form 1040A/Schedule 2 to take the credit for
                                   child and dependent care expenses.
 Earned Income Credit              Processes Form 1040/1040A with                    February 11, 2008
 (Schedule EIC)                    Schedule EIC. Uses the Earned Income Tax
                                   Credit information to identify those eligible
                                   tax returns that have Earned Income Tax
                                   Credit-qualifying dependents.
 Dependent Database                Expands capabilities to allow the CADE to         February 11, 2008
 Interface                         accept all dependents and to process the
                                   Earned Income Tax Credit.
 Split Refunds                     Provides taxpayers with the ability to deposit    February 25, 2008
                                   their electronic refunds from tax returns into
                                   multiple checking, savings, and/or retirement
                                   accounts.

Source: The IRS Wage and Investment Division and the Modernization and Information Technology Services
Applications Development organization.

 On February 13, 2008, the President signed the Economic Stimulus Act of 2008,2 which
 provided taxpayers with payments of up to $600 for individuals and $1,200 for couples. This
 relief was available to everyone with adjusted gross income less than $75,000 for singles and
 $150,000 for married couples filing jointly. The payments were phased out for taxpayers above
 those income thresholds. Everyone eligible for this relief was also eligible to receive an
 additional $300 per child.


 2
     Pub. L. No. 110-185, 122 Stat. 613.




                                                                                                    Page 15
                          Customer Account Data Engine Release 3
                       Successfully Processes Individual Tax Return and
                                   Tax Account Information



The IRS added the ability to issue economic stimulus payments through the CADE on
April 21, 2008. The first payments through the CADE were issued on April 28, 2008.




                                                                                     Page 16
                            Customer Account Data Engine Release 3
                         Successfully Processes Individual Tax Return and
                                     Tax Account Information



                                                                                 Appendix V

                              Glossary of Terms

              Term                                        Definition
Computing Centers              Support tax processing and information management through
                               a data processing and telecommunications infrastructure.
Dependent Database             A screening mechanism to score and select incoming tax
                               returns based on questionable dependent claims.
Enterprise Application         A commercial, off-the-shelf solution used to enable
Integration Broker             communication and data transformations among systems and
                               applications.
Filing Season                  The period from January through mid-April when most
                               individual income tax returns are filed.
Forms 1040, 1040A, and         The series of IRS forms that include individual income tax
1040EZ                         returns.
Individual Master File         The IRS database that maintains transactions or records of
                               individual tax accounts.
Legacy Account Formatted       A database containing CADE-processed tax information.
File Online
Master File                    The IRS database that stores various types of taxpayer
                               account information. This database includes individual,
                               business, and employee plans and exempt organizations data.
Modernized Tax Return          The legal repository for original electronically filed returns
Database                       received by the IRS through the Modernized e-File system.
Notice                         A computer-generated message resulting from an analysis of
                               the taxpayer’s account.
Release                        A specific edition of software.
Requirement                    A formalization of a need and statement of a capability or
                               condition that a system, sub-system, or system component
                               must have or meet to satisfy a contract, standard, or
                               specification.


                                                                                         Page 17
                          Customer Account Data Engine Release 3
                       Successfully Processes Individual Tax Return and
                                   Tax Account Information



Submission Processing Site   Sites located at IRS campuses that process paper and
                             electronic submissions, correct errors, and forward data to the
                             Computing Centers for analysis and posting to taxpayer
                             accounts.




                                                                                      Page 18
